<html>
<title> - BUSINESS MEETING</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                           BUSINESS MEETING

=======================================================================

                                MEETING

                               before the

                              COMMITTEE ON
                          HOUSE ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               ----------                              

             MEETING HELD IN WASHINGTON, DC, MARCH 29, 2007

                               ----------                              

      Printed for the use of the Committee on House Administration


                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html




                      U.S. GOVERNMENT PRINTING OFFICE
36-022 PDF                    WASHINGTON  :  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government
Printing Office Internet:  bookstore.gpo.gov Phone:  toll free (866)
512-1800; DC area (202) 512-1800 Fax: (202)512-2250 Mail: Stop SSOP,
Washington, DC 20402-0001 






                   COMMITTEE ON HOUSE ADMINISTRATION

           JUANITA MILLENDER-McDONALD, California, Chairwoman
ROBERT A. BRADY, Pennsylvania        VERNON J. EHLERS, Michigan
ZOE LOFGREN, California                Ranking Minority Member
MICHAEL E. CAPUANO, Massachusetts    DANIEL E. LUNGREN, California
CHARLES A. GONZALEZ, Texas           KEVIN McCARTHY, California
SUSAN DAVIS, California

 
                            BUSINESS MEETING

                              ----------                              


                        THURSDAY, MARCH 29, 2007

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 11:40 a.m., in room 
1310, Longworth House Office Building, Hon. Robert A. Brady 
presiding.
    Present: Representatives Brady, Lofgren, McCarthy, and 
Ehlers.
    Staff Present: Charles Howell, Chief Counsel; Thomas Hicks, 
Election Counsel; Janelle Hu, Professional Staff; Matt Pinkus, 
Professional Statt/Parliamentarian; Kristin McCowan, Chief 
Legislative Clerk; Fred Hay, Minority General Counsel; Gineen 
Beach, Minority Counsel; and Peter Sloan, Minority Professional 
Staff.
    Mr. Brady. Good morning, everyone.
    I would like to call the Committee to order at this point 
in time.
    I would like to recognize the gentlelady from California.
    Ms. Lofgren. Thank you.
    Mr. Chairman, as we know, we have postponed the markup 
scheduled for today because of the spate of illness of our 
Chairwoman and her interest in chairing the markup.
    But I did want to report from our subcommittee, our 
Election Subcommittee--we have had three hearings and the last 
one was a very extensive hearing that went on all morning--and 
this bipartisan bill has, I think, considerable momentum, that 
there were issues raised to us that we hoped to address in the 
legislative process when we reconvened after the recess.
    But I feel very positive about the energy behind this and 
our ability to deal with the issues that have been raised to 
us, and I want to give that report and also thank all of the 
members from the Election Committee on both sides of the aisle 
for their active participation in these sets of hearings.
    And that would conclude my brief report, Mr. Chairman.
    Mr. Brady. I thank the gentlelady.
    Mr. Ranking Member, Mr. Ehlers.
    Mr. Ehlers. I would just like to respond.
    I appreciate the spirit in which the comments were offered. 
We have looked at your proposed substitute. We have a number of 
amendments to that. I don't see anything that is a stopper. I 
think we should be able to work out an agreement, and whatever 
we don't work out we will handle through amendments when we 
come to the full committee and look where the votes fall.
    So I appreciate the spirit in which you made those 
comments, and we will continue to work with you and try to get 
the best bill we possibly can that will accomplish its 
purposes. A bill that will maintain the right of every citizen 
to vote, will assure that each citizen's vote, will count, and 
that we also take care of the particular problems.
    I don't know what the worst problem is, but particularly 
taking care of those with disabilities. That is not an easy 
issue to solve given the constraints of what we are trying to 
do, and we have to continue to do more work on that as well.
    So with that, I yield back.
    Mr. Brady. I thank the gentleman.
    Does anyone else seek recognition?
     Nobody else seeks recognition.
    I will now have the Committee stand adjourned.
    Thank you.
    [Whereupon, at 11:43 a.m., the committee was adjourned.]

</pre></body></html>
